                   Report on Audit of Compliance With
                      Cost Accounting Standard 418,
                  Allocation of Direct and Indirect Costs

                                  April 2004

                     Reference Number: 2004-1C-091




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            April 15, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE


       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Audit of Compliance With Cost Accounting
                             Standard 418, Allocation of Direct and Indirect Costs
                             (Audit #20041C0225)

       The Defense Contract Audit Agency (DCAA) performed an examination regarding the
       contractor’s compliance with the Cost Accounting Standards (CAS) and the Federal
       Acquisition Regulation (FAR). The purpose of the examination was to determine
       whether the contractor had complied with the requirements of CAS 418, Allocation of
       Direct and Indirect Costs, and any applicable FAR Part 31 requirements during the
       period of January 1, 2004, through March 22, 2004. By performing Federal
       Government contracts covered by Government regulations, the contractor asserts that
       its accounting practices comply with the requirements of the CAS.
       The DCAA indicated that the contractor converted to a PeopleSoft-based accounting
       system in January 2004. The DCAA is not aware of any inadequacies concerning this
       new system’s accumulating, reporting, and billing of costs on Federal Government
       contracts. According to the DCAA, the contractor had complied, in all material respects,
       with the requirements of CAS 418 during the period of January 1, 2004, through
       March 22, 2004.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
